REVIEW OF THE AWARD PROCESS FOR THE
   BUREAU OF JUSTICE ASSISTANCE
AMERICAN RECOVERY AND REINVESTMENT
  ACT CORRECTIONAL FACILITIES ON
    TRIBAL LANDS GRANT PROGRAM
          CATEGORIES I THROUGH IV

          U.S. Department of Justice
        Office of the Inspector General

                Report 10-26
                 June 2010
Introduction

      The American Recovery and Reinvestment Act of 2009 (Recovery Act)
created the Recovery Act Correctional Facilities on Tribal Lands Discretionary
Grant Program (Recovery Act Correctional Facilities on Tribal Lands Program)
and appropriated $225 million to the Bureau of Justice Assistance (BJA) to fund
the program. 1 Through this program, the BJA can provide funding to Indian
Tribes in the following five categories:

   •   Category I: Construction of detention facilities for adult and juvenile
       offenders

   •   Category II: Construction of single-tribe or regional multipurpose justice
       centers

   •   Category III: Renovation of existing detention facilities

   •   Category IV: Construction of alternative sentencing facilities

   •   Category V: Training and technical assistance for Correctional Facilities
       on Tribal lands Program

      According to the program solicitation, the goal of awards under
categories I through IV is to assist tribes in constructing and renovating
correctional facilities that are appropriate for the intended population,
supportive of cultural and traditional values, safe and secure when completed,
and in compliance with relevant Bureau of Indian Affairs (BIA) correctional
standards. Category V awards for the provision of training and technical
assistance are focused primarily on those tribes that receive funding in
categories I through IV of the solicitation. However, category V assistance can
also be provided to tribes not receiving funding in categories I through IV.

      As of March 26, 2010, the BJA awarded approximately $220 million of
the $225 million (approximately 98 percent) appropriated under the Recovery
Act Correctional Facilities on Tribal Lands Program to 20 category I through IV
recipients. 2 This report focuses only on the awards made under categories I
       1
         $225 million was appropriated to the BJA under the Recovery Act for grants under
section 20109 of subtitle A of title II of the Violent Crime Control and Law Enforcement Act of
1994 (Public Law 103-322).
       2
          Of the remaining $5 million, $4.5 million was awarded to one grantee under category
V for the provision of training and technical assistance, and approximately $500,000 remains
to be awarded. BJA officials informed us that they expect these additional un-awarded funds
to be added to the existing category V training and technical assistance award, bringing the
total award to $5 million.
through IV of the Recovery Act Correctional Facilities on Tribal Lands Program. 3
Awards made under category V will be the subject of a separate report.

       The objectives of this review were to assess:

   •   the application evaluation process used by the BJA in its funding
       decision for awards under the Recovery Act Correctional Facilities on
       Tribal Lands Program,

   •   if grants awarded under categories I through IV of the Recovery Act
       Correctional Facilities on Tribal Lands Program were made in compliance
       with established policies and procedures, and

   •   if any awards made under the Recovery Act Correctional Facilities on
       Tribal Lands Program duplicated the goals and objectives of a prior year
       BJA Non-Recovery Act Correctional Facilities on Tribal Lands Discretionary
       Grant Program (Non-Recovery Act Correctional Facilities on Tribal Lands)
       award. 4

Results in Brief

       We reviewed each application for the Recovery Act Correctional Facilities
on Tribal Lands Program to determine if the BJA had consistently enforced the
solicitation requirements. We identified that 14 of the 20 award recipients did
not submit all required materials with their applications at the time awards
were made. The BJA placed holds on 6 of the 14 grantees with incomplete
applications, but not for 8 grantees that were missing similar information. We
brought this concern to the Office of Justice Programs’ (OJP) attention, and its
Office of the Chief Financial Officer immediately placed withholding special
conditions on the grant funds for each of the eight questioned awards.




       3
         This report is one of a series of reports that we will issue during our ongoing review
of the Department’s management and oversight of Recovery Act funds allocated to the BJA’s
Recovery Act Correctional Facilities on Tribal Lands Program.
       4
          This report is a non-audit service as defined by generally accepted government
auditing standard 3.26. The report contains technical advice that is not intended to be used as
the primary basis for management decisions. As a result, this report is not intended to comply
with generally accepted government auditing standards.


                                              -2-
      After the BJA’s internal review, it forwarded 32 qualified category I
through IV applications to a peer review panel. 5 These applications were
divided among three panels, each consisting of three peer reviewers. We used
the raw peer review scores provided by the BJA to independently calculate the
average scores for each application to determine if the overall score was
accurately computed, and we found no discrepancies in the way the overall
scores had been averaged. 6

        We evaluated the BJA’s justifications for funding or not funding
applications sent to peer review. One of BJA’s most important considerations
for funding a project was the applicant’s ability to staff a correctional facility
after construction. The BJA sought input from the BIA because the tribes
generally seek funding through the BIA to support costs to maintain, staff, and
operate the facilities. The BJA stated that tribes would not be funded if the BIA
did not endorse the project and the tribe could not independently support
facility operations. In light of this requirement, we compared the BIA
endorsements with the final BJA award recipients. We identified one grantee
not endorsed by the BIA that would rely entirely on its own funding. We
discussed this concern with the BJA and were informed that the tribe was
currently working with the BIA to transfer existing BIA support for detention
services at an existing facility to the new facility upon completion.

      We also identified potential duplicate grant funding based on prior
Non-Recovery Act Correctional Facilities on Tribal Lands Program awards. We
compared a list of Recovery Act grant recipients with Non-Recovery Act grant
recipients from fiscal years (FYs) 2007, 2008, and 2009. We found three
grantees whose Recovery Act awards potentially duplicated the goals and
objectives of prior awards. The BJA informed us that these three tribes are in
the process of submitting requests for Grant Adjustment Notices to repurpose
the awards for related criminal justice functions.




       5
          A total of 43 applications were submitted under categories I through IV. These
applications were then internally reviewed by the BJA to determine if they met the basic
minimum requirements of the solicitation. Based on this review, the BJA rejected
11 applications; 5 were missing program abstracts, 4 were not federally-recognized tribes,
1 was a duplicate application, and 1 did not include sufficient and appropriate match funding.
       6
         We did not evaluate, nor do we provide an opinion, on the validity or accuracy of the
each individual peer reviewer’s assessment of the applications. The objective of our analysis
was to determine if the overall scores assigned to applications correctly represented the
average of the peer reviewers’ scores for each application.



                                             -3-
      In sum, we concluded that the BJA made awards under categories I
through IV of the Recovery Act Correctional Facilities on Tribal Lands Program
in compliance with established policies and procedures. Our concern about the
funding of eight incomplete applications has been adequately addressed by
OJP. However, we still have concerns about the BJA’s funding of one project
not endorsed by the BIA and three Recovery Act awards that duplicate the
goals and objectives of prior years’ funding. In our judgment, the BJA should
carefully monitor these grants and the resolution of these issues. If the issues
are not resolved, the BJA should consider using the funds for other purposes.

     The detailed results of our review of the BJA’s award processes for
categories I through IV of the Recovery Act Correctional Facilities on Tribal
Lands Program are discussed in the sections below.

Overview of Award Process

       The BJA received a total of 43 applications under categories I through IV
of the Recovery Act Correctional Facilities on Tribal Lands Program. Prior to
funding, each application undergoes a review process to ensure the most
qualified applicants are awarded grants. First, BJA performs an internal review
to determine if the applications meet the Basic Minimum Requirements of the
solicitation. Successful applications are then sent to external peer reviewers
for evaluation. Once scored, applications are again reviewed by BJA officials,
funding recommendations are made and then sent to OJP’s Assistant Attorney
General (AAG) for approval. Once the AAG approves funding
recommendations, awards are made. Table 1 below lists the applications
received by the BJA under the Recovery Act Correctional Facilities on Tribal
Lands Program by category.

TABLE 1: APPLICATIONS RECEIVED, SENT TO PEER REVIEW, AND AWARDED
                                      APPLICATIONS
                    APPLICATIONS      FORWARDED TO    APPLICATIONS
     CATEGORY          RECEIVED        PEER REVIEW      FUNDED
     Category I                   22                     12                 6
     Category II                  13                     13                 9
     Category III                  7                      6                 4
     Category IV                   1                      1                 1
         Total                    43                    32                 20
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)




                                         -4-
BJA’s Internal Review of Applications

      The 43 applications received were internally reviewed by the BJA to
determine if they met the Basic Minimum Requirements of the solicitation. 7 As
a result of the internal review, the BJA rejected 11 applications; 5 were
missing program abstracts, 4 were not federally-recognized tribes, 1 was a
duplicate application, and 1 did not include sufficient and appropriate match
funding. The remaining 32 of the 43 category I through IV applications were
forwarded to the external peer review phase of the selection process.

       As a result of the competitive review process, 12 applications were
rejected and 20 applications were ultimately funded. However, we identified
14 of the 20 award recipients that did not submit all required materials with
their applications at the time awards were made, indicating that the BJA did
not enforce solicitation requirements consistently across all applications. 8 The
BJA placed holds on 6 of the 14 incomplete applications. We identified eight
award recipients that were missing documents to meet the Basic Minimum
Requirements of the solicitation for which the BJA had not imposed special
conditions requiring the documents be submitted before drawdowns were
allowed.

      We communicated these concerns to the BJA and suggested that it be
consistent when it requires that applicants provide certain elements of the
application package as a condition of receiving an award. In response, the
Office of Justice Programs’ (OJP) Office of the Chief Financial Officer placed
withholding special conditions on the eight awards that were missing
       7
          Basic Minimum Requirements are defined for each program in the solicitation
developed by OJP in accordance with agency guidelines and regulations. Basic Minimum
Requirements for the Recovery Act Correctional Facilities on Tribal Lands Program solicitation
include: (1) a valid Data Universal Numbering System (DUNS) number and current
registration in the Central Contractor Registration (CCR) database; (2) a signed tribal
resolution by the application deadline (May 4, 2009); (3) a completed Standard Form 424, a
core government-wide standard data set and form for grant applications; (4) project abstract;
(5) project narrative; (6) project budget and budget narrative; (7) project timeline with
expected completion dates, resumes of key personnel, and Memorandum of Understanding (if
applicable); (8) a certification as to the Recovery Act reporting requirements; and (9) a
general certification as to the requirements for receipt of funds for infrastructure investments.
       8
         We reported the issue of inconsistent enforcement of solicitation requirements for the
Edward Byrne Memorial Justice Assistance Grant Program in a prior report. In its response,
OJP stated that for future solicitations, the BJA plans to describe material as “required” and
send back applications for additional information when the "required" information is not
included. U.S. Department of Justice Office of the Inspector General, Review of the Edward
Byrne Memorial Justice Assistance Grant Program Recovery Act Formula Awards Administered
by the Department of Justice’s Office of Justice Programs (December 2009).



                                              -5-
documents to meet the Basic Minimum Requirements of the solicitation.
Therefore, we consider this issue adequately addressed.

Peer Review Process

        The BJA contracts with a peer review logistical support provider to assist
with the peer review process for applications received under the Recovery Act
Correctional Facilities on Tribal Lands Program. 9 The logistical support provider
maintains a pool of potential peer reviewers, distributes access to applications
in OJP’s Grants Management System (GMS) to selected peer reviewers,
facilitates consensus calls between subject matter experts and peer reviewers,
and calculates the scores resulting from the review panels. At the request of
the BJA, the logistical support provider compiled a listing of potential peer
reviewers with experience working with tribes and correctional facilities. The
list of potential peer reviewers and their resumes were made available to the
BJA to select qualified candidates for the peer review process.

       The BJA formed three review panels, with three reviewers per panel.
Each panel was responsible for reviewing between 10 and 15 applications
under categories I through IV of the Recovery Act Correctional Facilities on
Tribal Lands Program.

Peer Review Scoring Methodology

       The BJA defined the criteria and the weighting of each criterion used to
evaluate applications submitted under categories I through IV of the Recovery
Act Correctional Facilities on Tribal Lands Program in the program solicitation.
Each peer reviewer performed an initial assessment and rated each criterion,
as listed below in Table 2, on a scale of 0 (unacceptable) to 10 (excellent).
Each criterion was assigned a weight (percentage) by the BJA, also identified in
Table 2.




       9
         Lockheed Martin holds the current contract to provide logistical support during the
peer review process.



                                             -6-
TABLE 2. CRITERIA AND WEIGHTING FOR EXTERNAL PEER REVIEW OF
         CATEGORY I THROUGH IV APPLICATIONS

                         CRITERIA                               WEIGHTED POINT VALUE
 Statement of the Problem/Program Narrative                            20%
 Project/Program Design and Implementation                               25%
 Capabilities/Competencies                                               30%
 Budget                                                                  10%
 Impact/Outcomes and Evaluation/Plan for Collecting Data
                                                                         15%
    for Performance Measures/Sustainment
Source: OJP

Peer Review Scoring Process

       Using the evaluation criteria provided by the BJA, peer reviewers
completed an initial assessment of each application. After the initial
assessments, each peer reviewer’s individual criterion scores were entered
onto the Initial Assessment Form in GMS, which automatically weighted each
score. 10 A peer reviewer’s overall application score is on a scale of 0
(unacceptable) to 100 (excellent), and is the sum of each criterion’s weighted
score. The logistical support provider compiled a report of all the initial
comments and scores submitted by the peer reviewers. The peer reviewers
then participated in a conference call facilitated by the logistical support
provider to discuss their scores and comments. The solicitation manager, a
BJA staff member responsible for overseeing the award process for a
solicitation, also participated to provide clarification to reviewers, but was not
allowed to influence the outcome of the application review.

       After the consensus call, peer reviewers were able to change their scores
or comments based on feedback they received from the group. While
reviewers can come to a consensus during this meeting, it is not required.
After the consensus call, peer reviewers then entered their final scores and
comments into the Final Assessments Form in GMS. We compared the original
scores to the final score submitted by the peer reviewers to identify any
applications that had been significantly changed following the consensus call,
and we did not identify any such changes.




      10
          GMS automatically weights each criterion score by multiplying each criterion score
by 10 and then by the weighting percentage assigned to each criterion under the Recovery Act
Correctional Facilities on Tribal Lands Program.



                                           -7-
      The final scores were then compiled by the logistical support provider. 11
The applications were then ranked by their overall final assessment score
within each award category. Appendix II details the overall final assessment
score for each application.

Peer Review Score Verification

       To determine the accuracy of the final scoring report provided to the BJA
by the logistical support provider and the calculations programmed into GMS to
automatically average the raw peer reviewer scores, we independently
averaged each application’s peer review scores and compared our results to
what was provided to the BJA by the logistical support provider. We
determined that the overall final assessment scores for all applications
reviewed under categories I through IV of the Recovery Act Correctional
Facilities on Tribal Lands Program had been accurately averaged and reported.
Therefore, we did not identify any material errors in the application of the
BJA’s peer review scoring methodology.

BJA’s Award Decision

       After the peer review was completed, the grant manager and the BJA
program office management collaborated to recommend applications for
funding. The BJA reviewed applications with a minimum average final peer
review score of 70 to develop its funding recommendations for categories I
through IV of the Recovery Act Correctional Facilities on Tribal Lands Program.
In addition to the peer review score, the BJA officials considered several factors
in their funding recommendations, such as: OJP’s high risk designation,
geographic and tribal distribution, number of jobs created, past performance,
and input from the BIA. The BJA developed a formal recommendation
memorandum for approval by the AAG for OJP based on the BJA’s evaluation of
the applications. This memorandum outlined which projects the BJA
recommended for funding and the rationale for selection. The memorandum
also included the peer review scores and justification for recommending an
applicant with a lower peer review score over one with a higher score. While
the BJA recommends applications for funding, the ultimate funding decision is
made by the AAG for OJP.

      We reviewed the BJA’s Recovery Act Correctional Facilities on Tribal
Lands Program funding memorandum and identified several concerns with the
projects recommended by the BJA, as explained below.

       11
          Each application received an overall final assessment score on a scale of
0 (unacceptable) to 100 (excellent), which represents the average of all three final peer
reviewer scores.



                                             -8-
Unfunded Applications Scoring Higher than Funded Applications

       A prior OIG audit detailed the OJP policy requiring peer review scores
and justifications for recommending an applicant with a lower peer review
score over one with a higher score be documented. 12 The OJP has since
included the scores and justifications in the funding memorandum sent to the
AAG for OJP for approval. We reviewed the justifications for funding
applications with lower peer review scores than other applications within the
same funding category that were denied. Of the 32 applications sent to peer
review, 12 were not funded under the Recovery Act Correctional Facilities on
Tribal Lands Program. Of these 12 applications, 10 had scored higher than the
lowest funded application. The justifications given for not recommending
funding to these applicants are listed below:

   •   The BIA did not support the project, but the tribes indicated that they
       would need funding from the BIA to operate and maintain the completed
       facility;

   •   Tribal applicants had been recommended for funding of a similar facility.
       By funding only one facility of this nature for the Tribe, the BJA is
       allowing greater funding opportunities for other tribes;

   •   The applicant had received a $24 million earmark administered by the
       BIA to construct a similar facility; and

   •   The BIA noted that applicant’s proposed facility was overbuilding for the
       tribal population.

      Our review found that the BJA had included justifications for not funding
applications ranked higher than the lowest scoring funded application for each
of the categories I through IV.

Funded Applications with Unsupported Staffing Resources

      One of the most important considerations in creating the BJA’s funding
recommendations for the Recovery Act Correctional Facilities on Tribal Lands
Program was the tribe’s ability to staff the facilities after completion. While the
BJA funds the construction of tribal correctional facilities under this program,
the responsibility for the staffing, operation, and maintenance of the completed

       12
           U.S. Department of Justice Office of the Inspector General, Procedures Used by the
Office of Juvenile Justice and Delinquency Prevention to Award Discretionary Grants in Fiscal
Year 2007, Audit Report 09-24 (April 2009).



                                            -9-
facilities rests on either the BIA or the tribes themselves. In developing its
funding recommendation, the BJA sought input from the BIA on funding
applications from tribes that fell under the BIA’s purview because tribes
generally seek funding from the BIA to support costs to maintain, staff, and
operate correctional facilities. 13 The BIA’s review was limited to information
provided in the application materials submitted by each tribe, along with the
BIA’s consideration of facility need.

       We found that 29 of the 32 peer reviewed applications were forwarded to
the BIA for input. The three applications not forwarded to the BIA were
determined to be outside of the BIA’s purview. 14 The BIA reviewed the
applications provided by the BJA and generated a listing of applications that it
endorsed in a memorandum to the BJA. The listing was based on the BIA’s
priority ranking of the applications and whether or not the BIA would support
funding of operations and maintenance of the completed facilities.

        Categories I through IV of the Recovery Act Correctional Facilities on
Tribal Lands Program were designed to help improve and eliminate
incarceration problems facing tribes. Program success hinges on completed
facilities becoming operational, including staff and resources for maintenance.
New facilities that are non-operational due to a lack of sufficient resources for
operations will not address any of the correctional problems identified and
could limit the success of the Recovery Act Correctional Facilities on Tribal
Lands Program. To assess the consideration given to each applicant’s ability to
provide sufficient operation and maintenance resources for its new correctional
facilities, we compared the applications funded by the BJA with the operational
funding endorsements from the BIA. Based on this comparison, we identified
seven funded applications that did not receive an operational funding
endorsement from the BIA in addition to the two funded applications that were
not reviewed by the BIA due to fact that they were outside of the BIA’s
purview.



       13
           Congress transferred criminal and civil jurisdiction over tribal lands from the federal
government to the state government in six states (Alaska, California, Minnesota, Nebraska,
Oregon, and Wisconsin). 18 U.S.C. § 1162 (2009) 28 U.S.C. § 1360 (2009). As such, tribes
located in these six states are outside of the purview of the BIA.
       14
            Two applicants were located in California (The Pauma Band of Mission Indians and
Tule River Tribal Council), and one applicant was located in Alaska (Native Village of
Kwinhagak). The BJA ultimately funded two applications (Native Village of Kwinhagak and Tule
River Tribal Council), and rejected one application (The Pauma Band of Mission Indians) due to
a peer review score of 31 out of a possible 100. The funded applications indicated that the
tribes will use tribal revenues in addition to applying for other federal grants to support the
operation of the newly constructed facilities.



                                              - 10 -
       For any projects not endorsed by the BIA, the BJA evaluated each tribe’s
existing resources and its ability to provide any additional resources necessary
to support staffing, operations, and maintenance of the new facilities in its
funding decision. We reviewed the application materials provided by each of
the nine tribes, listed in Table 4, to verify each tribe’s proposed sources of
operations and maintenance funds. 15

TABLE 4: AWARDED APPLICATIONS FROM TRIBES NOT ENDORSED OR
         REVIEWED BY THE BIA
                                                                             SOURCE OF
                                                                           OPERATIONS &
                                                         FUNDED            MAINTENANCE
     GRANTEE ORGANIZATION                CATEGORY        AMOUNT              FUNDING
 Ramah Navajo Chapter                    Category I      $ 3,806,850              BIA
                                                                         Tribe/Federal Grants/
 Puyallup Tribe of Indians               Category II       7,936,648
                                                                              Contract Fees
                                                                          Tribe/Contract Fees/
 Eastern Band of Cherokee Indians        Category II      18,000,000
                                                                         Federal & State Funds
 Pascua Yaqui Tribe                      Category II      20,849,173           Tribe/BIA

 Shoshone-Bannock Tribes                 Category II       3,507,421           Tribe/BIA
 Nisqually Tribe                         Category II      10,720,232        Fee for Service
                                                                         Federal Grants/Fee for
 Eight Northern Indian Pueblos Council   Category IV       5,636,317       Service/ Medicare
                                                                            Reimbursement
 Native Village of Kwinhagak             Category II       1,350,000      City & Tribal Funds
 Tule River Tribal Council               Category II       3,069,764      BIA/Tribal Revenues

 Total                                        9         $74,876,405
Source: AAG Funding Memo; OJP GMS; BJA Officials

      Upon review of the application materials, we found that five of the nine
applications indicated that the tribes themselves would be able to provide
adequate funding to staff, operate, and maintain the new facilities through
other federal grant programs, tribal revenues, or fees from services provided
at the new facilities. 16 Three of the nine applicants stated in their applications
that the tribes would provide funding, but would require at least some

         15
          We relied on the information presented by each tribe in its application and did not
attempt to verify the accuracy of this information for this analysis, nor did we attempt to
evaluate the feasibility of tribes generating sufficient revenues or obtaining future grants
proposed as potential funding sources.
         16
           These tribes were the: Native Village of Kwinhagak, Puyallup Tribe of Indians,
Eastern Band of Cherokee Indians, Eight Northern Indian Pueblos Council, and Nisqually Tribe.
These tribes plan to collect fees to provide services, such as housing inmates for local and
other tribal jurisdictions.



                                               - 11 -
resources from the BIA to support operations and maintenance of the new
facilities. However, these applications indicated that the tribes had already
secured BIA funding for existing facilities and programs and would transfer
these resources to the new facility upon completion. As a result, these tribes
indicated that they would not need to request additional funding from the BIA
to support the new facilities. 17 The one remaining application from the Ramah
Navajo Chapter was not endorsed by the BIA, and the tribe indicated in its
application that it would need additional support from the BIA to staff, operate,
and maintain the new facility.

       We discussed this concern with BJA officials and they informed us that
the BIA currently funds police and detention services at the Ramah Navajo
Chapter through contracts authorized by the Indian Self-Determination and
Education Assistance Act of 1975. 18 The tribe and the BIA are currently
negotiating the separation of the police services from the detention services in
the contract so that the detention services currently funded through BIA
contracts may be transferred to the new correctional facility funded by the
Recovery Act upon completion. However, until changes to the contracts are
finalized by the tribe and the BIA, the long-term viability of this project is
uncertain. In our judgment, the BJA should carefully monitor drawdowns and
negotiations for this grant to ensure that grant funds are not expended on an
unsustainable project. If the Ramah Navajo Chapter fails to secure funding or
resources to operate the new facility, the BJA should consider de-obligating
these funds.

Potential Duplicate Grant Funding

       The BJA awarded grants under the Non-Recovery Act Correctional
Facilities on Tribal Lands Program in FYs 2007, 2008, and 2009.19 Grants
awarded under this program may be used to assist tribes with the planning of a
correctional facility (Planning Grant) or with the renovation of existing facilities
(Renovation Grant).

      To identify any program awards that appeared to duplicate the efforts of a
prior year Non-Recovery Act Correctional Facilities on Tribal Lands Program
award, we compared a list of all Recovery Act Correctional Facilities on Tribal

       17
         These tribes were the: Tule River Tribal Council, Shoshone-Bannock Tribes, and
Pascua Yaqui Tribe.
       18
            25 U.S.C. §450f (2009).
       19
            In general, prior to FY 2007 funds for the construction or renovation of correctional
facilities were provided by the BJA to tribes as congressionally mandated awards or under the
Edward Byrne Discretionary Grant Program.



                                             - 12 -
Lands Program Grant recipients with all prior grantees from FYs 2007, 2008,
and 2009 Non-Recovery Act Correctional Facilities on Tribal Lands Program. We
identified eight Recovery Act Correctional Facilities on Tribal Lands Program
grantees that had also been awarded Non-Recovery Act Correctional Facilities
on Tribal Lands Program Planning or Renovation Grants in prior years, as shown
in Table 5 below.

TABLE 5: RECOVERY ACT CORRECTIONAL FACILITIES PROGRAM
         GRANTEES ALSO RECEIVING NON-RECOVERY ACT
         CORRECTIONAL FACILITIES GRANTS

  STATE               ORGANIZATION                             PROGRAM        AWARD AMOUNT
    AZ    Colorado River Indian Tribe                   FY 2008 Renovation        $499,400
                                                        FY 2009 Renovation         485,980
    AZ    Navajo Nation - Tuba City                     FY 2008 Renovation         500,000
                                                        FY 2008 Planning           150,000
    AZ    Navajo Nation - Kayenta City                  FY 2009 Planning           150,000
    AZ    Pascua Yaqui Tribe                            FY 2007 Planning           132,945
    MT    Chippewa Cree Tribe                           FY 2007 Planning           149,969
                                                        FY 2008 Planning II        149,541
                                                        FY 2008 Renovation         450,000
    MT    Ft. Peck Assiniboine & Sioux Tribe            FY 2007 Planning           137,888
    SD    Yankton Sioux                                 FY 2008 Renovation         500,000
   WA     Confederated Tribes of the Chehalis
            Reservation                                 FY 2007 Renovation         497,900
  TOTAL                       8                                                $3,803,623
Source: OJP GMS

      For Recovery Act Correctional Facilities on Tribal Lands Program award
recipients that received potentially duplicative prior year awards, we reviewed
the application materials and award documentation to determine the goals and
objectives of each grant and to identify any areas of overlap between the grants
awarded. Of the eight tribes that received multiple awards under the programs
discussed above, three appeared to have been awarded Recovery Act grants
that duplicate the goals and objectives of the prior year awards. The grants
that these three tribes were awarded are summarized in Table 6 below, and the
relevant issues with each are discussed in the sections that follow.




                                               - 13 -
TABLE 6: PRIOR YEAR GRANTS WITH GOALS DUPLICATED BY
         RECOVERY ACT FUNDING

   STATE                 ORGANIZATION                       PROGRAM       AWARD AMOUNT
    AZ       Navajo Nation - Tuba City               FY 2008 Renovation         $500,000
    AZ       Navajo Nation - Kayenta City            FY 2009 Planning            150,000
    MT       Chippewa Cree Tribe                     FY 2008 Renovation          450,000

  TOTAL                         3                                           $1,100,000
Source: OJP GMS and BJA officials

Navajo Nation – Tuba City

       On September 30, 2008, OJP awarded the Navajo Nation $500,000 in
FY 2008 Non-Recovery Act Correctional Facilities on Tribal Lands Program
Renovation funding to address security deficiencies at its Tuba City Adult
Detention Facility. 20 Specifically, this funding was to be used to upgrade and
expand the security system and to extend the electronic fence and security
lights around the facility’s exterior. The project period for this grant is October
2008 through March 2011, and as of March 3, 2010, the Navajo Nation had not
drawn any of the available funding.

      On September 21, 2009, OJP awarded the Navajo Nation $38,587,560 for
the construction of a multi-purpose justice center in Tuba City, Arizona, under
category II of the Recovery Act Correctional Facilities on Tribal Lands
Program. 21 According to the program narrative submitted with the Navajo
Nation’s application for this funding, the justice center is being constructed to
replace the Tuba City Adult Detention Facility that was demolished. Since the
Tuba City Adult Detention Facility has been demolished, the goals and
objectives established in the 2008 Renovation Grant awarded to Navajo Nation
for the renovation of the Tuba City Adult Detention Facility appear to be no
longer achievable.

      We brought this concern to the BJA’s attention and suggested it follow up
on this issue with the tribe. The BJA informed us that the facility in question
has indeed been demolished and that the objectives of the FY 2008 Non-
Recovery Act Correctional Facilities on Tribal Lands Program Renovation Grant
are no longer applicable. BJA officials also informed us that the FY 2008
Renovation Grant funds will be repurposed to allow the Navajo Nation to
renovate modular buildings that will serve as a temporary jail until the

      20
           OJP Grant No. 2008-IP-BX-0042.
      21
         OJP Grant No. 2009-ST-B9-0089. The project period for this award is from July
2009 through June 2012.



                                            - 14 -
multi-purpose justice center funded by the Recovery Act is operational. 22 On
February 18, 2010, the Navajo Nation submitted a request to relocate the
corrections and law enforcement modular facilities to make room for the
construction of the new Recovery Act-funded correctional facility. This Grant
Adjustment Notice was approved by the BJA on March 22, 2010. Therefore, we
consider this issue to have been adequately addressed.

Navajo Nation – Kayenta City

      On September 3, 2009, the Navajo Nation was awarded $150,000 in
FY 2009 Non-Recovery Act Planning Grant to develop plans for a regional
correctional facility in Kayenta, Arizona. 23 The project period for this grant is
July 2009 through December 2010, and as of March 3, 2010, the Navajo Nation
had not drawn any of the funding.

       Additionally, on September 21, 2009, the Navajo Nation was awarded
$31,655,277 for the construction of a multi-purpose justice center in Kayenta
City, Arizona, under category II of the Recovery Act Correctional Facilities on
Tribal Lands Program. 24 According to the program narrative for the Recovery
Act grant, the plans and blueprints for a replacement correctional facility in
Kayenta City have already been created and the Navajo Nation is ready to build
its detention center. Because the Navajo Nation stated in its Recovery Act
grant application that the plans for construction of the Kayenta facility have
been completed, it appeared that the 2009 Non-Recovery Act Correctional
Facilities on Tribal Lands Program Planning Grant was no longer necessary.

       At our request, the BJA followed up on this issue with the tribe and found
that the Navajo Nation will request a change of scope for the $150,000 FY 2009
Planning Grant from physical planning of the structure of the facility to
operational planning. The proposed scope change will utilize funding to develop
policies and procedures for the operation of the correctional facility as well as to
train correctional facility staff. As of April 26, 2010, no request for a change of
scope or Grant Adjustment Notice has been completed to propose and authorize
the repurposing of FY 2009 grant funds. We recommended to the BJA that it
should consider placing a hold on the FY 2009 Planning Grant until the tribe
submits a request to repurpose these funds with a Grant Adjustment Notice. In

       22
          Renovations include site preparation for moving modular facilities and installing
fencing around the temporary facilities.
       23
            OJP Grant No. 2009-IP-BX-0074.
       24
          OJP Grant No. 2009-ST-B9-0100. The project period for this award is from October
2009 through September 2014. Category II funds are for the construction of single-tribe or
regional multipurpose justice centers.



                                             - 15 -
May 2010, the BJA requested a funding freeze and attached a withholding
special condition on the award until a Grant Adjustment Notice is submitted. If
the Navajo Nation fails to submit a request to repurpose these funds, or this
request for a change of scope is denied, the BJA should consider de-obligating
the funds so that they may be put to better use.

Chippewa Cree Tribe

       On September 30, 2008, the Chippewa Cree Tribe was awarded a
$450,000 FY 2008 Renovation Grant to renovate the Rocky Boy Detention
Facility to correct structural and mechanical deficiencies, and reconfigure the
building to provide an appropriate, adequate, and secure detention space. 25
The project period for this grant is September 2008 through February 2011,
and as of March 3, 2010, only $42,602 (approximately 9.5 percent) of the
available funding had been drawn down. 26

       The Chippewa Cree Tribe was also awarded $12,374,177 on
September 21, 2009, for the construction of a multi-purpose justice center
under category II of the Recovery Act Correctional Facilities on Tribal Lands
Program. 27 In its application for the Recovery Act funding, the Chippewa Cree
Tribe stated it planned to replace the Rocky Boy facility with the new facility
funded by the Recovery Act. Thus, we were concerned that the original plans
identified in the 2008 Non-Recovery Act Correctional Facilities on Tribal Lands
Program Grant may have changed.

       At our request, the BJA followed up on this issue with the tribe and found
that the BIA has designated the existing Rocky Boy detention facility as “poor”
and in need of renovation. Because the Recovery Act Correctional Facilities on
Tribal Lands Program funding will be used to construct a facility that will
replace the existing Rocky Boy facility, the Chippewa Cree Tribe is proposing
that the FY 2008 Non-Recovery Act Correctional Facilities on Tribal Lands
Renovation Grant funding be used to renovate the existing Rocky Boy facility
for use during the construction of the new facility. Once the new facility is
completed and the existing Rocky Boy facility is no longer needed for
detention, the Chippewa Cree Tribe plans to use the existing Rocky Boy facility
for an alternative criminal justice purpose.

      25
           OJP Grant No. 2008-IP-BX-0300.
      26
          The Chippewa Cree Tribe submitted a request that was approved March 1, 2010, to
extend the project period from February 28, 2010, to February 28, 2011.
      27
         Grant No. 2009-ST-B9-0098. The project period for this award is from July 2009 to
June 2011.




                                            - 16 -
        Depending on the specific use of the Rocky Boy facility after the new
facility is constructed, the tribe may not need the full award amount of the
2008 renovation or Recovery Act construction grant. For example, the budget
for the FY 2008 renovation grant includes approximately $145,000 for
equipment and supplies for a detention facility, such as commercial grade
kitchen and laundry equipment, furniture for cells, and a backup generator.
However, if the grantee does not use the Rocky Boy facility for detention after
the new facility is constructed, OJP may be able to reduce the amount of its
Recovery Act award. Specifically, many of these equipment expenses are
included as part of the approximately $1.3 million received for equipment in
the Recovery Act award. In its Recovery Act application, the Chippewa Cree
Tribe estimated that the new facility would be completed in 30 months. Since
equipment purchased under the FY 2008 renovation grant will still have a
remaining useful life after 30 months, OJP may be able to reduce the amount
of Recovery Act grant funds used for equipment by transferring equipment
purchased for the existing Rocky Boy facility to the new facility.

        Since it was recently determined that the Rocky Boy facility will be used
for an alternative purpose and may not be used for detention after the new
facility has been constructed, the BJA should follow up with the Chippewa Cree
Tribe to determine if the full amount of both grants awarded is still necessary.

Conclusion

      Based on our review, we concluded that the BJA made awards under the
Recovery Act Correctional Facilities on Tribal Lands Program in compliance with
established policies and procedures. However, we had some concerns with the
consistent enforcement of required application materials. However, these
concerns have since been addressed by the BJA by placing withholding special
conditions on the eight awards that were missing documents to meet the Basic
Minimum Requirements of the solicitation.

        Finally, we identified one award recipient that was not endorsed by the
BIA, but will require BIA funding to operate and maintain the completed
facility, and three Recovery Act awards that duplicate the goals and objectives
of prior year Non-Recovery Act Correctional Facilities on Tribal Lands Program
funding. The BJA is aware of these areas of concern and is currently working
with the tribes to resolve these issues. However, until agreements with the
BIA can be formalized by the tribes and Grant Adjustment Notices can be
issued to repurpose duplicative funding, the long-term viability and
effectiveness of these projects is uncertain. In our judgment, the BJA should
continue their efforts to resolve these issues, and if not resolved, the BJA
should consider de-obligating the funds so that they may be put to better use.


                                     - 17 -
                     OJP’s Response and OIG Analysis

      We provided OJP a draft version of this report. After reviewing the
report, OJP representatives stated that while the BJA works closely with the
BIA to seek the BIA’s input on funding decisions, the absence of BIA
endorsement of a project is not in itself grounds for denying an application for
funding. The BJA goals for tribal construction do not always match those of
the BIA, due to factors such as legislative language, appropriations to each
agency, budget cycles, and the manner in which each agency conducts
business in Indian Country. Since the Ramah Navajo Chapter committed to
reallocating a pre-existing commitment from the BIA for funding of operations,
the BJA asserted that the Ramah Navajo Chapter should be able to move
forward on this important project. In the BJA’s opinion, freezing the funding
would cause unnecessary delay and could adversely affect the ongoing
negotiations between the BIA and the tribe.

      The BJA agreed that funding to the Navajo Nation for the Kayenta
Community facility should be frozen until the Navajo Nation has submitted a
Grant Adjustment Notice. The BJA has requested a funding freeze and
attached a withholding special condition on the award until a Grant Adjustment
Notice is submitted.

       Additionally, the BJA clarified that the Chippewa Cree Tribe’s existing
Rocky Boy facility will be used for detention purposes until the new Recovery
Act-funded facility is complete. The renovation funds from the FY 2008 award
will be used for renovating the existing Rocky Boy facility. When the facility is
no longer needed for detention, the Tribe plans to use it for an alternative
criminal justice purpose. The BJA concluded that this is consistent with the
relevant property disposition regulations and the prior practice of the BJA.
Because the renovation grant funding will be used as originally intended, the
BJA did not consider it appropriate to freeze the funds.

      In response to OJP’s comments, we made minor modifications to the
report. However, we continue to recommend that the BJA carefully monitors
drawdowns and negotiations for the Ramah Navajo Chapter grant to ensure
grant funds are not expended on an unsustainable project. In addition, we
continue to recommend that the BJA follow up with the Chippewa Cree Tribe to
determine if the full amount of grant funds awarded is necessary under grants
2008-IP-BX-0300 and 2009-ST-B9-0098, taking into consideration that the
Rocky Boy facility may not be used as a detention facility after the new facility
is constructed.




                                      - 18 -
                                                                                 APPENDIX I

             RECOVERY ACT CORRECTIONAL FACILITIES ON
               TRIBAL LANDS CATEGORIES I–IV AWARDS

                                                                                   AMOUNT
 AWARD NUMBER     STATE         GRANTEE ORGANIZATION              CATEGORY         AWARDED
2009-ST-B9-0097    AZ     Colorado River Indian Tribes            Category I        $4,561,213
2009-ST-B9-0100    AZ     Navajo Nation Department of Public      Category I        31,655,277
                          Safety - Kayenta Community
2009-ST-B9-0096    SD     Rosebud Sioux Tribe                     Category I        25,000,000
2009-ST-B9-0090    MT     Ft. Peck Assiniboine & Sioux Tribes     Category I        12,683,342
2009-ST-B9-0066    NM     Ramah Navajo Chapter                    Category I         3,806,850
2009-ST-B9-0088    WA     Yakama Nation                           Category I        11,975,078
2009-ST-B9-0098    MT     Chippewa Cree Tribe                     Category II       12,374,177
2009-ST-B9-0080    AK     Native Village of Kwinhagak             Category II        1,350,000
2009-ST-B9-0099    WA     Puyallup Tribe of Indians               Category II        7,936,648
2009-ST-B9-0076    NC     Eastern Band of Cherokee Indians        Category II       18,000,000
2009-ST-B9-0091    AZ     Pascua Yaqui Tribe                      Category II       20,849,173
2009-ST-B9-0094    ID     Shoshone-Bannock Tribes                 Category II        3,507,421
2009-ST-B9-0089    AZ     Navajo Nation Department of Public      Category II       38,587,560
                          Safety - Tuba City
2009-ST-B9-0095    WA     Nisqually Tribe                         Category II       10,720,232
2009-ST-B9-0093    CA     Tule river tribal council               Category II        3,069,764
2009-ST-B9-0082    AZ     White Mountain Apache Tribe             Category III         947,310
2009-ST-B9-0102    MT     Confederated Salish and Kootenai        Category III       1,335,073
                          Tribes
2009-ST-B9-0087    SD     Yankton Sioux Tribe                     Category III       5,800,000
2009-ST-B9-0103    WA     Confederated Tribes of the Chehalis     Category III         203,623
                          Reservation
2009-ST-B9-0077    NM     Eight Northern Indian Pueblos Council   Category IV        5,636,317
Total              20                                                            $219,999,058
Source: OJP GMS




                                            - 19 -
                                                                                        APPENDIX II

                FINAL PEER REVIEW SCORES REPORTED BY BJA
                                                                                                  FINAL
                                                                                                  PEER
  APPLICATION                                                                                    REVIEW
    NUMBER         STATE                 GRANTEE ORGANIZATION                     CATEGORY       SCORE
2009-G4557-AZ-ST    AZ     Colorado River Indian Tribes                           Category I        93.83
2009-G6113-AZ-ST    AZ     Navajo Nation Dept of Public Safety - Kayenta City     Category I        89.33
2009-G6111-AZ-ST    AZ     Navajo Nation Dept of Public Safety - Dilkon           Category I        86.50
2009-G6286-SD-ST    SD     Rosebud Sioux Tribe                                    Category I        81.67
2009-F6776-MT-ST    MT     Ft. Peck Assiniboine & Sioux Tribes                    Category I        81.17
2009-G4166-UT-ST    UT     The Ute Indian Tribe of Uintah and Ouray               Category I        79.00
2009-G6272-NM-ST    NM     Ramah Navajo Chapter                                   Category I        77.17
2009-G6131-MI-ST    MI     Sault Ste Marie of Chippewa Indians                    Category I        76.33
2009-G6169-AZ-ST    AZ     The Hopi Tribe                                         Category I        71.67
2009-G6185-WA-ST    WA     Yakama Nation                                          Category I        71.17
2009-G6287-NV-ST    NV     Fallon Paiute-Shoshone Tribe                           Category I        51.50
2009-G6270-CA-ST    CA     The Pauma Band of Mission Indians                      Category I        31.00
2009-G4341-MT-ST    MT     Chippewa Cree Tribe                                    Category II       92.00
2009-G2688-AK-ST    AK     Native Village of Kwinhagak                            Category II       91.33
2009-F9215-WA-ST    WA     Puyallup Tribe of Indians                              Category II       88.50
2009-F4773-NC-ST    NC     Eastern Band of Cherokee Indians                       Category II       84.00
2009-G6025-AZ-ST    AZ     Pascua Yaqui Tribe                                     Category II       82.33
2009-G5915-ID-ST    ID     Shoshone-Bannock Tribes                                Category II       80.33
2009-G5844-AZ-ST    AZ     Navajo Nation Dept of Public Safety - Tuba City        Category II       79.67
2009-G6089-AZ-ST    AZ     Navajo Nation Dept of Public Safety - Crownpoint       Category II       79.67
2009-F3607-WY-ST    WY     Northern Arapahoe Business Council                     Category II       79.00
2009-G6241-WA-ST    WA     Nisqually Tribe                                        Category II       74.83
2009-F9102-CA-ST    CA     Tule River Tribal Council                              Category II       74.17
2009-G6275-WA-ST    WA     Lummi Nation                                           Category II       73.50
2009-G6071-SD-ST    SD     Oglala Sioux Tribe Department of Public Safety         Category II       72.50
2009-G5922-AZ-ST    AZ     White Mountain Apache Tribe                            Category III      93.17
                           Navajo Nation Dept of Public Safety - Tohatchi Youth
2009-G6118-AZ-ST    AZ     Detention Center                                       Category III      87.33
2009-G3023-MT-ST    MT     Confederated Salish and Kootenai Tribes                Category III      80.67
2009-F3787-SD-ST    SD     Yankton Sioux Tribe                                    Category III      77.17
2009-F5438-WA-ST    WA     Confederated Tribes of the Chehalis Reservation        Category III      75.83
2009-G6215-WA-ST    WA     Colville Confederated Tribes                           Category III      75.50
2009-G6109-NM-ST    NM     Eight Northern Indian Pueblos Council                  Category IV       79.83

Source: OJP GMS




                                                 - 20 -
